 Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL




  AVERAGE MANUFACTURER PRICE
DETERMINATIONS BY SELECTED DRUG
MANUFACTURERS GENERALLY WERE
    CONSISTENT WITH FEDERAL
         REQUIREMENTS


   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov.




                                                    Brian P. Ritchie
                                               Assistant Inspector General

                                                        June 2014
                                                      A-06-13-00014
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

  The methodologies that selected drug manufacturers used to determine average
  manufacturer prices for drugs reimbursed by Medicaid generally were consistent with
  Federal requirements.


WHY WE DID THIS REVIEW

The Patient Protection and Affordable Care Act (ACA) made major changes in the methodology
used to determine Medicaid rebates paid to States for drugs reimbursed by Medicaid. Effective
October 1, 2010, among other things, the ACA changed the definition of the average
manufacturer price (AMP), which is a significant factor in determining manufacturers’ rebate
liabilities. In 2012, the Centers for Medicare & Medicaid Services (CMS) issued a proposed rule
implementing the provisions of the ACA, but the final rule is still pending. As a result,
manufacturers have been calculating AMPs without final regulations.

The objective of this review was to determine whether the methodologies that 20 selected drug
manufacturers used to determine AMPs for drugs reimbursed by Medicaid were consistent with
Federal requirements.

BACKGROUND

The Social Security Act (the Act) outlines the requirements relating to the Medicaid drug rebate
program (section 1927 of the Act). In general, for a manufacturer’s covered outpatient drugs to
be eligible for Federal Medicaid funding under the program, the manufacturer must enter into a
rebate agreement with CMS and pay quarterly rebates to the States. Under the program,
manufacturers are required to report monthly and quarterly to CMS the AMP for each covered
outpatient drug (section 1927(b)(3)(A)(i)(I)). CMS uses the AMP to calculate a unit rebate
amount for each covered outpatient drug.

Prior to the ACA, the Act defined AMP as the average price paid to the manufacturer by
wholesalers for drugs distributed to the retail pharmacy class of trade (section 1927(k)(1)(A)).
However, the Act did not define the retail pharmacy class of trade, and CMS eventually
interpreted the retail pharmacy class of trade to include entities other than retail community
pharmacies, such as mail-order pharmacies and specialty pharmacies. In previous reviews, we
found that such nontraditional pharmacies could often purchase drugs at a lower cost than
traditional retail community pharmacies. Therefore, including sales to nontraditional pharmacies
and any associated discounts or rebates (price concessions) could result in lower AMPs and thus
lower rebates.

The ACA modified the definition of AMP, in part, by replacing retail pharmacy class of trade
with retail community pharmacies (section 2503(a)(2)(A)). The ACA defined retail community
pharmacy as an independent pharmacy, a chain pharmacy, a supermarket pharmacy, or a mass
merchandiser pharmacy that dispenses medications to the general public at retail prices (section




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)    i
2503(a)(4)). These changes significantly reduced the number and types of entities whose sales
and price concessions are included in a manufacturer’s AMP calculation.

We judgmentally selected 20 manufacturers and reviewed a detailed description of their AMP
methodologies. We also obtained and reviewed the transactions supporting the monthly AMP
calculation for one drug product for each manufacturer.

WHAT WE FOUND

The methodologies that selected drug manufacturers used to determine AMPs generally were
consistent with Federal requirements. Specifically, the 20 selected manufacturers’
methodologies consistently included transactions from retail community pharmacies rather than
the more broadly defined retail pharmacy class of trade.

However, manufacturers treated authorized generic sales to a secondary manufacturer
differently. Eleven manufacturers addressed authorized generic sales in their methodology:
eight manufacturers included sales to secondary manufacturers in their AMP calculations but
three did not. Including sales of authorized generics to secondary manufacturers has the
potential to significantly lower a drug’s AMP.

In addition, all 20 manufacturers followed what is known as the presumptive-inclusion
methodology for wholesaler sales contrary to CMS’s proposed rejection of this methodology.
For the 20 drugs for which we reviewed transaction data, manufacturers would not have been
able to calculate the AMP for 10 without following the presumptive-inclusion methodology.

Finally, 16 manufacturers used a 12-month rolling average to estimate and remove indirect sales
to ineligible customers from their AMP calculations even though the use of such an average is
prescribed only for manufacturer price concessions.

WHAT WE RECOMMEND

We recommend that CMS:

    •   clarify the conditions for including authorized generic sales to a secondary manufacturer
        in the AMP calculation,

    •   keep the policy permitting a presumptive-inclusion methodology for wholesaler sales,
        and

    •   expand the use of a 12-month rolling average to estimate and remove indirect
        sales related to ineligible customers.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS stated that it is currently considering public




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)     ii
comments to its proposed rule and that it intends to address our recommendations in the final
rule. CMS also provided a technical comment, which we addressed.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)   iii
                                               TABLE OF CONTENTS


INTRODUCTION ..........................................................................................................................1

           Why We Did This Review ..................................................................................................1

           Objective .............................................................................................................................1

           Background .........................................................................................................................1
                 Medicaid Drug Rebate Program .............................................................................1
                 Average Manufacturer Price ...................................................................................1
                 Federal Regulations ................................................................................................2

           How We Conducted This Review.......................................................................................2

FINDINGS ......................................................................................................................................3

           Manufacturers’ Methodologies Consistently Included Transactions From Retail
             Community Pharmacies .................................................................................................3

           Manufacturers Treated Authorized Generic Drug Sales to Secondary Manufacturers
             Differently ......................................................................................................................4

           Manufacturers Treated Sales to Wholesalers Contrary to CMS’s Proposed Rule..............5

           Manufacturers Used an Unprescribed Method to Remove Indirect Sales to Ineligible
             Customers .......................................................................................................................6

RECOMMENDATIONS ................................................................................................................6

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ...................................7

APPENDIXES

           A: Audit Scope and Methodology .....................................................................................8

           B: Centers for Medicare & Medicaid Services Comments ................................................9




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)                                                  iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

The Patient Protection and Affordable Care Act (ACA) made major changes in the methodology
used to determine Medicaid rebates paid to States for drugs reimbursed by Medicaid. Effective
October 1, 2010, among other things, the ACA changed the definition of the average
manufacturer price (AMP), which is a significant factor in determining manufacturers’ rebate
liabilities. In 2012, the Centers for Medicare & Medicaid Services (CMS) issued a proposed rule
implementing the provisions of the ACA, but the final rule is still pending. As a result,
manufacturers have been calculating AMPs without final regulations.

OBJECTIVE

Our objective was to determine whether the methodologies that 20 selected drug manufacturers
used to determine AMPs for drugs reimbursed by Medicaid were consistent with Federal
requirements.

BACKGROUND

Medicaid Drug Rebate Program

The Social Security Act (the Act) outlines the requirements relating to the Medicaid drug rebate
program (section 1927 of the Act). For a manufacturer’s covered outpatient drugs to be eligible
for Federal Medicaid funding under the program, the manufacturer must enter into a rebate
agreement with CMS and pay quarterly rebates to the States. Under the program, manufacturers
are required to report monthly and quarterly to CMS the AMP for each covered outpatient drug
(section 1927(b)(3)(A)(i)(I)). 1 A quarterly AMP is calculated as a weighted average of the
monthly AMPs. CMS uses the AMP to calculate a unit rebate amount for each covered
outpatient drug and provides the unit rebate amounts to the States. The States determine the total
rebate amounts that participating manufacturers owe by multiplying the unit rebate amount by
the number of units of the drug dispensed to Medicaid beneficiaries.

Average Manufacturer Price

Prior to the ACA, the Act defined AMP as the average price paid to the manufacturer by
wholesalers for drugs distributed to the retail pharmacy class of trade. 2 However, the Act did not
define the retail pharmacy class of trade, and CMS eventually interpreted the retail pharmacy
class of trade to include not only retail community pharmacies but entities such as mail-order


1
 The calculations of monthly and quarterly AMPs are discussed in proposed regulations (42 CFR §§ 447.504(e) and
447.510). See 77 Fed. Reg. 5318 at 5362 and 5365 (Feb. 2, 2012).
2
 The Medicaid drug rebate program was established by the Omnibus Reconciliation Act of 1990, and the definition
of AMP as described above was included as section 1927(k)(1)(A) of the Act.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)               1
pharmacies and specialty pharmacies. 3 Previous OIG reviews 4 have found that nontraditional
pharmacies such as these could often purchase drugs at lower costs than traditional retail
community pharmacies. Therefore, including sales of nontraditional pharmacies and any
associated discounts or rebates (price concessions) could result in lower AMPs and thus lower
rebates.

The ACA modified the definition of AMP, in part, by replacing the retail pharmacy class of trade
terminology with retail community pharmacies (section 2503(a)(2)(A)). The ACA defined retail
community pharmacy as an independent pharmacy, a chain pharmacy, a supermarket pharmacy,
or a mass merchandiser pharmacy that dispenses medications to the general public at retail prices
(section 2503(a)(4)). 5 These changes significantly reduced the number and types of entities
whose sales and price concessions are included in a manufacturer’s AMP calculation.

Federal Regulations

In 2007, CMS issued regulations implementing provisions of the Deficit Reduction Act but
withdrew the portion of the regulation relating to the determination of AMP in 2010. 6 In 2012,
CMS issued a proposed rule implementing provisions of the ACA that revised requirements for
covered outpatient drugs, 7 but the final regulation is still pending. Manufacturers must comply
with the ACA requirements relevant to this report as of October 1, 2010, regardless of
whether final regulations have been promulgated (ACA, section 2503(d)).

In the absence of specific guidance, CMS has permitted manufacturers to make reasonable
assumptions in their AMP calculations that are consistent with the general requirements and
intent of section 1927 of the Act, Federal regulations, and the rebate agreement they have with
CMS. 8

HOW WE CONDUCTED THIS REVIEW

We judgmentally selected 20 manufacturers for our review. For each manufacturer, we obtained
and reviewed a detailed description of their AMP methodologies, including any reasonable

3
    See, e.g., 2 CFR § 447.504(e), 72 Fed. Reg. 39142, 39241 (July 17, 2007).
4
 Medicaid Pharmacy – Additional Analyses of the Actual Acquisition Cost of Prescription Drug Products (A-06-02-
00041), issued September 16, 2002, and Medicaid Pharmacy – Actual Acquisition Cost of Brand Name Prescription
Drug Products, issued August 10, 2001 (A-06-00-00023).
5
    This definition is now included in section 1927(k)(10) of the Act.
6
 The 2007 regulations were issued in July 2007. 72 Fed. Reg. 39142 (July 2007 Regulations). The determination
of AMP was discussed in 42 CFR § 447.504 of those regulations. In November 2010, CMS removed 42 CFR. §
447.504, 75 Fed. Reg. 69591, 69597 (Nov. 15, 2010).
7
    77 Fed. Reg. 5318 (Feb. 2, 2012) (Feb. 2012 Proposed Rule).
8
  Section II(i) of Sample Rebate Medicaid Drug Agreement. Available online at
http://www.medicaid.gov/Medicaid-CHIP-Program-Information/By-Topics/Benefits/Prescription-
Drugs/Downloads/SampleRebateAgreement.pdf. Accessed on August 15, 2013.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)                 2
assumptions they made for their calculations. We also obtained and reviewed the transactions
supporting the October 2012 9 monthly AMP calculation for one drug product for each
manufacturer.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology.

                                                    FINDINGS

The methodologies that selected drug manufacturers used to determine AMPs generally were
consistent with Federal requirements. Specifically, the 20 selected manufacturers’
methodologies consistently included transactions from retail community pharmacies rather than
the more broadly defined retail pharmacy class of trade.

However, manufacturers treated authorized generic sales to a secondary manufacturer
differently. Eleven manufacturers addressed authorized generic sales in their methodology:
eight manufacturers included sales to secondary manufacturers in their AMP calculations but
three did not. Including sales of authorized generics to secondary manufacturers has the
potential to significantly lower a drug’s AMP.

In addition, all 20 manufacturers followed what is known as the presumptive-inclusion
methodology for wholesaler sales contrary to CMS’s proposed rejection of this methodology.
For the 20 drugs for which we reviewed transaction data, manufacturers would not have been
able to calculate the AMP for 10 without following the presumptive-inclusion methodology.

Finally, 16 manufacturers used a 12-month rolling average to estimate and remove indirect sales
to ineligible customers from their AMP calculations even though the use of such an average is
prescribed only for manufacturer price concessions.

MANUFACTURERS’ METHODOLOGIES CONSISTENTLY INCLUDED
TRANSACTIONS FROM RETAIL COMMUNITY PHARMACIES

The ACA redefined AMP as the average price paid by wholesalers for drugs distributed to retail
community pharmacies or by retail community pharmacies that purchase directly from
manufacturers. 10 The methodologies that the 20 selected drug manufacturers used to determine


9
 One of the selected manufacturers was acquired by another manufacturer effective December 31, 2012. We
permitted the acquiring manufacturer to submit the sales transactions for the selected drug for January 2013.
10
     Section 1927(k)(1) of the Act as modified by section 2503(a)(2)(A) of the ACA.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)                 3
AMPs for drugs reimbursed by Medicaid consistently included transactions from retail
community pharmacies rather than the more broadly defined retail pharmacy class of trade.

MANUFACTURERS TREATED AUTHORIZED GENERIC DRUG SALES TO
SECONDARY MANUFACTURERS DIFFERENTLY

An authorized generic drug is any drug product that is marketed under the innovator (brand)
manufacturer’s New Drug Application 11 but labeled with a different national drug code 12 from
the brand name product. 13 That is, an authorized generic drug is a brand name drug that the
brand manufacturer permits a secondary manufacturer to sell as a generic.

In its 2007 regulation, CMS required that manufacturers include sales of authorized generic
drugs in the calculation of AMP only when the drugs were sold directly to wholesalers. 14 In its
2012 proposed rule, CMS defined primary and secondary manufacturers and has proposed that
primary manufacturers include in their AMP calculations the sales of authorized generic drugs to
secondary manufacturers if the secondary manufacturer is acting as a wholesaler. 15 In part, CMS
has suggested this change in response to a provision in the ACA that provides the first statutory
definition of wholesaler. 16 The ACA’s definition of wholesaler includes manufacturers (section
2503(a)(4)).

Of the 20 manufacturers we reviewed, 11 manufacturers provided information regarding the
sales of authorized generic drugs to secondary manufacturers. Eight of the manufacturers stated
that they include in their AMP calculations the sales of an authorized generic drug to secondary
manufacturers, and three manufacturers stated that they did not include such sales in their AMP
calculations. Officials for six of the eight manufacturers that included sales to secondary
manufacturers said that they did so based on the change in the statutory definition of wholesaler.
The other three manufacturers did not include sales to secondary manufacturers for different
reasons. Officials for one manufacturer stated that it was unclear whether the statutory definition
of wholesaler was intended to expand the definition of AMP-includable sales to sales of an
authorized generic drug to a secondary manufacturer. Officials for another manufacturer said
that they did not include these sales because it was not clear what acting as a wholesaler meant in
the context of a secondary manufacturer. Officials at the third manufacturer stated that they

11
  The Food and Drug Administration (FDA) approves new drugs through the New Drug Application process, and
generic drugs are approved under an Abbreviated New Drug Application.
12
  The National Drug Code is a code set that identifies the vendor (manufacturer), product, and package size of all
drugs and biologics recognized by the FDA. It is maintained and distributed by the Department of Health and
Human Services in collaboration with drug manufacturers.
13
     42 CFR § 447.506(a) as set forth in the July 2007 regulations at 39243.
14
     42 CFR § 447.406(b) as set forth in the July 2007 regulations at 39243.
15
     42 CFR § 447.506 as set forth in the February 2012 proposed rule at 5363.
16
  February 2012 proposed rule at 5337. The definition of wholesaler is now included in section 1927(k)(11) of the
Act.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)                      4
considered Federal regulations at 42 CFR § 447.506 from the July 2007 regulation to still be in
effect.

Including sales of authorized generics to secondary manufacturers has the potential to
significantly lower a drug’s AMP. The AMP calculation for 3 of the 20 drugs selected for
review included authorized generic sales to a secondary manufacturer. We recalculated AMP for
the three drugs by removing the sales to the secondary manufacturers and determined that the
AMPs would have been substantially higher. (See the table below.)

                   Table: Average Manufacturer Prices With and Without Sales of
                      Authorized Generic Drugs to Secondary Manufacturers

      Sales to Secondary Manufacturers                            Drug A     Drug B               Drug C
 Included (as reported)                                            $1.66      $1.97                $4.01
 Excluded                                                          $9.88      $6.22               $10.07

MANUFACTURERS TREATED SALES TO WHOLESALERS CONTRARY TO CMS’S
PROPOSED RULE

CMS established a presumptive-inclusion policy under which manufacturers include sales to
wholesalers in their AMP calculations except for sales that can be identified as being
subsequently sold by those wholesalers to customers that are not eligible for inclusion in AMP. 17
CMS confirmed the presumptive-inclusion policy in the regulation published in 2007. 18 In
practice, presumptive-inclusion has allowed manufacturers to include all wholesaler sales in their
AMP calculations and then remove sales to ineligible customers that are identified from
wholesaler chargebacks or other information.

Manufacturers often negotiate with wholesalers’ customers prices that are lower than the price
paid by the wholesaler. When a wholesaler sells to a customer that has negotiated a price with a
manufacturer that is lower than the wholesaler’s price, the wholesaler submits a chargeback to
the manufacturer to recover the amount lost on the sale. Through chargeback data,
manufacturers are able to identify whether wholesalers sold to eligible or ineligible customers.

In its proposed 2012 rule, CMS proposed to reject a presumptive-inclusion policy, instead
requiring manufacturers essentially to include sales to wholesalers when the manufacturer can
identify the wholesalers’ customers as retail community pharmacies. 19 All 20 manufacturers that
we reviewed followed the presumptive-inclusion methodology for sales to wholesalers. For the
20 drugs for which we reviewed transaction data, manufacturers would not have been able to
calculate the AMP for 10 because there were no direct sales to retail community pharmacies, and
there were no chargebacks to wholesalers for sales to retail community pharmacies. If

17
     1997 Medicaid Drug Rebate Program Release No. 29.

18
     42 CFR § 447.504(g) in the July 2007 regulations at 39241.
19
     February 2012 proposed rule at 5330.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)            5
manufacturers can not presume that wholesaler sales are included in AMP, manufacturers may
be unable to calculate AMPs for many drugs.

MANUFACTURERS USED AN UNPRESCRIBED METHOD TO REMOVE INDIRECT
SALES TO INELIGIBLE CUSTOMERS

Section 2503(a) of the ACA amended section 1927(e) of the Act to require CMS to implement a
smoothing, or averaging, process for AMP calculations, similar to the smoothing process used in
determining the average sales price (ASP) of a drug or biological under Medicare Part B. 20 In
response to the ACA requirement, CMS implemented a smoothing process that uses a 12-month
rolling average to estimate the value of lagged (or late-arriving) price concessions (2011
Medicaid Drug Rebate Release No. 83). CMS included that smoothing process in its proposed
rule. 21

In neither the release nor the proposed rule did CMS provide for the use of a 12-month rolling
average to estimate indirect sales to ineligible customers. Of the 20 manufacturers that we
reviewed, 16 removed indirect sales to ineligible customers using a 12-month rolling average to
estimate the amount of sales to remove. According to three manufacturers, the use of a 12-
month rolling average to remove indirect sales to ineligible customers should result in more
stable and reliable AMP calculations. We do not believe that using a 12-month rolling average
to remove indirect sales to ineligible customers would negatively impact the amount of rebates
paid. 22

RECOMMENDATIONS

We recommend that CMS:

       •   clarify the conditions for including authorized generic sales to a secondary manufacturer
           in the AMP calculation,

       •   keep the policy permitting a presumptive-inclusion methodology for wholesaler sales,
           and



20
  Pursuant to Title XVIII of the Social Security Act, the Medicare program provides health insurance for people
aged 65 and over and those who are disabled or have permanent kidney disease. Part B of the Medicare program
provides supplementary medical insurance for medical and other health services, including outpatient services such
as the injection of drugs. CMS administers the program. Medicare Part B pays for most covered drugs using a
reimbursement methodology based on ASP. In certain aspects, manufacturers calculate ASP similar to how they
calculate AMP. See, e.g., 42 U.S.C. § 1395w-3a and 42 CFR § 414.800 et seq.
21
     42 CFR § 447.510(d) as set forth in the February 2012 proposed rule at 5365.
22
  As previously discussed, CMS has proposed eliminating the presumptive-inclusion policy and requiring
manufacturers to include sales to wholesalers only when the manufacturer can identify that the sales were to retail
community pharmacies. If the proposal were to become final, manufacturers would no longer need to remove
indirect sales to ineligible customers.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)                       6
    •   expand the use of a 12-month rolling average to estimate and remove indirect
        sales related to ineligible customers.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In written comments on our draft report, CMS stated that it is currently considering public
comments to its proposed rule and that it intends to address our recommendations in the final
rule. CMS also provided a technical comment, which we addressed. CMS’s comments,
excluding the technical comment, are included as Appendix B.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)   7
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

We judgmentally selected 20 manufacturers and reviewed a detailed description of their AMP
methodologies, including any reasonable assumptions they made for their calculations. We also
obtained and reviewed the transactions supporting the October 2012 23 monthly AMP calculation
for one drug product for each manufacturer. Because our objective focused on the
methodologies that the 20 selected drug manufacturers used to determine AMPs for drugs
reimbursed by Medicaid and not the reported AMP, we did not perform any procedures to verify
the validity of the transactions provided.

Section 202 of the Education Jobs and Medicaid Assistance Act (P.L. No. 111–226) provides for
an alternative AMP calculation for drugs that are not generally dispensed through retail
community pharmacies. We did not include this alternative AMP calculation in our review of
manufacturers’ methodologies.

Our objective did not require that we identify or review any internal controls.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws, regulations, and CMS guidance;

     •   obtained the national Medicaid drug utilization data, including reimbursement amounts,
         for calendar year (CY) 2011 from the CMS Web site;

     •   judgmentally selected 20 manufacturers that had Medicaid reimbursement from CY 2011
         and judgmentally selected 1 drug from each manufacturer;

     •   obtained and reviewed, from each manufacturer, a detailed description of its AMP
         methodology, including any reasonable assumptions made as well as the transactions that
         supported the October 2012 AMP calculation for the selected drug;

     •   reviewed the customer classifications manufacturers included and excluded in their AMP
         calculations;

     •   reviewed the price concessions that manufacturers included in their AMP calculations;

     •   reviewed the 12-month rolling average methodologies used to smooth transactions; and

     •   discussed our findings with CMS.

23
  One of the selected manufacturers was acquired by another manufacturer effective December 31, 2012. We
permitted the acquiring manufacturer to submit the sales transactions for the selected drug for January 2013.




Manufacturers’ Determinations of Average Manufacturer Prices for Medicaid Drugs (A-06-13-00014)           8
 APPENDIX B: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS 

   ,.,........,
  t.. l
      . ­          DEPAKIMENl' OF HEALTH & HUMAN SERVICES                              Centers lor Medicare & Medicaid Services


                                                                                        Administrator
                                                                                        Washi ngton, DC 20201




                  DATE:           FEB 11 2014
                  TO:


                  FROM:


                  SUBJECT:      Office of Inspector General (OIG) Draft Report: " Average Manufacturer
                                Price Determinations by Selected Drug Manufacturers Generally Were
                                Consistent With Federal Requirements" (A-06-13-00014)

                  Thank you for the opportunity to review and comment on the above subject OIG draft report.
                  The Centers for Medicare & Medicaid Services (CMS) appreciates the information presented in
                  the report and offers the following comments.

                  The Patient Protection and Affordable Care Act of2010, as amended by the Health Care and
                  Education Reconci liation Act of2010 (collectively referred to as the Affordable Care Act
                  (ACA)) made significant changes to the Medicaid Drug Rebate Program. The ACA changed
                  the definition of the average manufacturer price (AMP) which is a significant factor in
                  determining manufacturer's Medicaid rebate liabilities. CMS issued a proposed rule (77 FR
                  5318 (Feb. 2, 2012)) implementing the provisions of the ACA. The purpose of OJG ' s review
                  was to determine whether the methodologies that 20 selected drug manufacturers used to
                  determine AMPs for drugs reimbursed by Medicaid were consistent with Federal
                  requirements since manufacturers have been calculating AMPs without final regulations
                  implementing the AMP provisions of ACA.

                  OIG Fjndjpgs

                  The OIG found that the methodologies the 20 selected drug manufacturers used to determine
                  AMPs generally were consistent with Federal requirements. The 20 selected manufacturers'
                  methodologies included transactions from retail community pharmacies rather than the more
                  broadly defined retai l pharmacy class of trade.

                  However, OIG found that manufacturers treated authorized generic sales to a secondary
                  manufacturer differently. Of the eleven manufacturers that addressed authorized generic
                  sales in their AMP methodology, eight manufacturers included sales to secondary
                  manufacturers in their AMP calculations and three did not include sales of authorized
                  generics to secondary manufacturers.




Manuftcturers' DeterminaJions ofAverage Manuftcturer Prices for Medicaid Drugs (A-0~ 13-00014)                            9
             Page 2 - Daniel R. Levinson

             Additionally, OIG found that all 20 manufacturers used the presumptive-inclusion
             methodology for wholesaler sales, contrary to CMS proposed elimination of the requirement.
             For the 20 drugs for which OIG reviewed transaction data, manufacturers would not have been
             able to calculate AMP for ten drugs without following the presumptive-inclusion
             methodology.

             Lastly, OIG found that 16 manufacturers used a 12-month rolling average to estimate and
             remove indirect sales to ineligible customers from their AMP calculations even though the
             use of such an average is prescribed only for manufacturer price concessions.

             OIG Recomm e ndation

             The OIG recommend CMS clarify the conditions for including authorized generic
             sales to a secondary manufacturer in the AMP calculation.

             CMS Response

             The CMS is in the process of considering public comments to its proposed rule regarding
             the conditions for including authorized generic sales to a secondary manufacturer in AMP
             calculations. CMS intends to address this question in the final rule.

             OIG Reco m m endatjon

             The OIG recommend CMS keep the presumptive-inclusion requirement for wholesaler sales.

             CMS Response

             The CMS is in the process ofconsidering public comments to its proposed rule
             regarding the presumptive-inclusion methodology. CMS intends to address this
             question in the final rule.

             OIG Recommcndatjop

             The OIG recommend CMS expand the use of a 12-month rolling average to estimate and
             remove indirect sales related to ineligible customers.

             CMS Response

             The CMS is in the process of considering public comments to its proposed rule regarding
             expanding the use o f a 12-month rolling average to estimate and remove indirect sales related
             to ineligible customers. CMS intends to address this question in the final rule.

              The CMS appreciates the opportunity to review and comment on this 0 I G draft report, and
              lo ok forward to working with OIG on this and other issues.




Manuftcturers' DeterminaJions ofAverage Manuftcturer Prices for Medicaid Drugs (A-Ofr 13-00014)               10
